                                                                 Issue Date
                                                                        November 1, 2007
                                                                 Audit Report Number
                                                                          2008-LA-1001




TO:         William Vasquez, Director, Office of Community Planning and Development,
              9DD



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The City of Huntington Park, Huntington Park, California, Did Not Always
           Ensure That HOME Program Requirements Were Met


                                   HIGHLIGHTS

 What We Audited and Why

      We audited the City of Huntington Park’s (City) HOME Investment Partnerships
      Program (HOME) due to an increased emphasis on U.S. Department of Housing and
      Urban Development (HUD) Office of Community Planning and Development programs.
      In addition, a recent HUD Office of Community Planning and Development monitoring
      report and the City’s financial audit report identified problems with the City’s overall
      management and administration of its HOME program. Our objectives were to
      determine whether the conditions identified in the HUD monitoring and single audit
      reports still existed and whether the City administered its HOME program in accordance
      with HUD requirements.

 What We Found


      While the City had an adequate financial management system and adequate source
      documentation to support project expenses, and recently implemented new internal
      policies and procedures to administer its HOME program, it did not ensure that its
      contracted community housing and development organization, supported homebuyers’
      income eligibility with appropriate source documentation; that income determinations
      were performed in accordance with HOME requirements; and that HOME affordability
     requirements were imposed with the sale of a property. This condition resulted in the
     unsupported use of $296,599 in HOME funds and eligibility determinations that did not
     meet HOME requirements. In addition, $204,442 earned from the sale of property, had
     been retained by the community housing and development organization for four years
     and had not been applied to another project.

What We Recommend


     We recommend that HUD require the City to provide documentation to support the
     eligibility of homebuyers with unsupported income or repay from nonfederal funds the
     $296,599 in HOME funds that were spent on the project. We also recommend HUD
     require the City to establish procedures with sufficient detail to ensure that income
     determinations are performed consistent with HOME requirements. If proceeds are
     retained by the community housing and development organization, the City must ensure
     that a written agreement is executed describing how and when the proceeds will be used.
     Since the City has recently established policies and procedures to ensure that affordability
     requirements are imposed for future projects, we have no recommendation for this area.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the City the draft report on September 20, 2007 and held an exit conference
     with auditee officials on October 1, 2007. The City provided its written response to us on
     October 10, 2007. The City generally disagreed with our report.

     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
   Finding 1: Homebuyers’ Income Eligibility Was Not Adequately Determined,        5
              Affordability Requirements Were Not Imposed, and the Future Use of
              Proceeds from the Sale of HOME-Assisted Property Was Not
              Documented

Scope and Methodology                                                              9

Internal Controls                                                                  10

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               11
   B. Auditee Comments and OIG’s Evaluation                                        12
   C. Criteria                                                                     19




                                            3
                      BACKGROUND AND OBJECTIVES


HOME. The HOME Investment Partnerships Program (HOME) is authorized under Title II of
the Cranston-Gonzalez National Affordable Housing Act. Program regulations are contained in
24 CFR [Code of Federal Regulations] Part 92 and the HOME Investment Partnerships Program
Final Rule. HOME is a federal block grant to state and local governments designed exclusively
to create affordable housing for low-income households. HOME provides formula grants to
states and localities that communities use, often in partnership with local nonprofit groups, to
fund a wide range of activities that build, buy, and/or rehabilitate affordable housing for rent or
homeownership or provide direct rental assistance to low-income households. HOME funds are
awarded annually as formula grants to participating jurisdictions. The program allows state and
local governments to use HOME funds for grants, direct loans, loan guarantees or other forms of
credit enhancement, rental assistance, or security deposits. Households must meet certain low-
income limit criteria published by the U.S. Department of Housing and Urban Development
(HUD) to receive HOME assistance.

The City of Huntington Park. As a participating jurisdiction, the City of Huntington Park (City)
is responsible for the overall administration and oversight of the HOME and Community
Development Block Grant programs. Using funds from these programs, the City sponsors
various activities that are aimed at addressing the priority needs of low- and moderate-income
households (tenants and property owners) as well as business owners through community
development, economic development, housing, and public services. Although the City does
offer some tenant rental assistance, the majority of its HOME funds are spent on rehabilitation of
affordable housing projects including residential rehabilitation, minor home repair, and
commercial rehabilitation. The City received $854,634 in HOME funding in fiscal year 2006
and $848,079 in fiscal year 2007.

The City’s overall management of its HOME program was criticized in a June 2006 HUD Office
of Community Planning and Development monitoring report. In addition, a single audit report
from the same timeframe stated that the City did not maintain adequate policies and procedures
to administer key aspects of its HOME program, including monitoring, recertification of its
community housing and development organizations, on-site inspections, and income
determinations. HUD cleared the City’s outstanding findings and recommendations in
December 2006.

Within the past year, the City has hired two contractors to administer its HUD programs and to
provide property rehabilitation services. However, since the contractors were recently retained
by the City, our objectives were to determine whether conditions identified by HUD and the
single audit report still existed and whether the City administered its HOME program in
accordance with HUD requirements.




                                                 4
                                 RESULTS OF AUDIT


Finding 1: Homebuyers’ Income Eligibility Was Not Adequately
Determined, Affordability Requirements Were Not Imposed, and the
Future Use of Proceeds from the Sale of HOME-Assisted Property Was
Not Documented
The City did not ensure that income for homebuyers who purchased homes as part of the City’s
affordable homebuyer program was supported and determined in accordance with HOME
requirements. Also, the City did not impose affordability requirements to ensure that a property
would remain occupied by a low-income family and did not document the future eligible HOME
activities that would be funded by proceeds retained from the sale of the property. This
condition occurred because the City did not adequately consider HOME program regulations
pertaining to income determinations, affordability, and the future use of sale proceeds. As a
result, applicants with unsupported income may not have been eligible to participate in the
program, and inaccurate and incomplete eligibility determinations increased the risk that
unqualified persons might receive HOME assistance. In addition, buyers were not held
accountable for remaining at the property or ensuring that it was sold to another low-income
buyer, and proceeds from the sale of property had not been used for any other affordable housing
projects for over four years.


 Income Eligibility Was Not
 Always Supported and
 Determined in Accordance with
 HOME Requirements


       The City entered into an agreement with a community housing and development
       organization, Southeast Community Housing Development Corporation (Corporation), to
       purchase and rehabilitate homes to be sold to very low-income buyers. However, the
       Corporation did not obtain sufficient documentation to demonstrate income eligibility for
       one affordable homebuyer project’s participants. The Corporation was authorized
       $311,700 and spent $296,599 in HOME funds to rehabilitate a duplex and sold the
       property to supposedly low-income buyers. However, the project file contained
       insufficient documentation to support the income of the two buyers (a mother and
       daughter). Also, although the mother’s income was used to qualify for the second unit of
       the duplex, her name was not on the title to the property. Instead, the daughter’s husband
       was listed on the title document. The Corporation claimed that the husband’s income
       was not considered because he was unemployed; however, there was no documentation
       or certifications in the file to support this claim. In addition, a review of an online system
       listed the borrower and her husband on the title of another property, and they remained on



                                                 5
     that title. Therefore, it is not clear whether the family qualified or whether the mother
     and daughter actually occupied both units of the duplex.

     The City qualified six households for another affordable homebuyer project using income
     that was not determined in accordance with HOME requirements.

            •     One file contained an analysis of income, but the analysis only showed the
                  homebuyer’s annual wage income. The file contained handwritten
                  calculations and copies of the applicant’s pay stubs, Internal Revenue
                  Service (IRS) Form W-2, and IRS Form 1040, but the calculations did not
                  agree with the wage income that was recorded on the analysis of income.
            •     Another file had household members with income from several sources,
                  including wage income, net income from a business, and public assistance,
                  but there was no analysis in the file. One family member’s public assistance
                  was not included in the household’s total income, and no explanation was
                  documented in the file.
            •     A third file had several analyses of income, and it was unclear which one
                  was used to qualify the homebuyer.
            •     The frequency of another homebuyer’s pay was not correctly determined,
                  causing the homebuyer’s income to be incorrectly calculated.

     Two homebuyers had unallowable deductions or no support for the deductions that were
     taken to determine their qualifying income.

            •     The City inappropriately deducted one applicant’s payroll deductions to
                  qualify her for assistance, but no deductions were taken for the applicant’s
                  children.
            •     Another applicant’s deductions included a $400 deduction for elderly or
                  disabled family members, but there was no documentation in the file to
                  support that any family member was elderly or disabled as defined by
                  HOME requirements. A $960 deduction was taken for the applicant’s
                  parents, but the file documentation did not support that either parent
                  qualified as a dependent according to HOME requirements.

     We recalculated the incomes of the above applicants using HOME guidance and
     determined them eligible to receive assistance.


Affordability Requirements
Were Not Imposed


     The Corporation did not impose affordability requirements with the sale of property to
     the homebuyers, claiming it was not necessary since the buyers did not directly receive
     any HOME subsidy to purchase the property. Since affordability requirements were not
     imposed, the buyers were not held accountable for remaining at the property or ensuring


                                               6
     that it was sold to another low-income participant. The City’s agreement with the
     Corporation states that if the community housing and development corporation does not
     meet HOME affordability requirements, the City will require repayment of funds.
     However, the City did not recover the funds that were provided to the Corporation.


The Future Use of Sale
Proceeds Was Not Documented
in a Written Agreement

     The Corporation’s project file showed that $204,442 in proceeds was earned from the
     sale of the duplex, and the City allowed the Corporation to retain the proceeds to seek
     other affordable housing projects. However, the City did not execute a new agreement
     with the Corporation identifying the HOME-eligible projects or other housing activities
     to benefit low-income families that would be funded with the proceeds, and it did not
     establish deadlines or reporting requirements for the expenditure of those funds. The
     Corporation had been allowed to retain the funds since the sale of the project in August
     2003 and had not applied the funds to another affordable housing project.

Conclusion


     The above condition occurred because the City did not adequately consider the applicable
     HOME program regulations. However, the City has recently established, through its
     contractor, new internal procedures, which provide guidance on the administration of its
     rent-assisted and affordable homebuyer programs, including general procedures for
     determining applicants’ qualifying income and preserving affordability. We recalculated
     the homebuyers’ income that was inaccurately determined and found that the homebuyers
     were eligible to receive assistance. However, by not complying with HOME
     requirements, the City cannot ensure that HOME program objectives were met for all of
     its projects. In addition, income determinations that are inaccurately performed increase
     the risk that unqualified persons might receive HOME assistance and that qualified
     persons might be wrongfully denied assistance.

Recommendations

     We recommend that the director of the Office of Community Planning and Development

     1A. Require the City to provide the necessary documentation to support the eligibility of the
     homebuyers with unsupported income or repay the $296,599 drawn for the Corporation’s
     project.




                                              7
1B. Require the City to establish policies and procedures with sufficient detail to ensure that
future income determinations are performed consistent with HOME requirements.

1C. Require the City to establish policies and procedures to ensure that written agreements
are executed in accordance with CPD (Community Planning and Development) Notice 97-
9, describing the use of proceeds by community housing and development organizations;
and ensure that $204,442 in community housing and development organization sale
proceeds are promptly applied to another affordable housing project.




                                          8
                        SCOPE AND METHODOLOGY

We performed our review between May 1 and August 17, 2007, at the City of Huntington Park,
6550 Miles Avenue, Huntington Park, CA. Our audit work covered the period July 1, 2003,
through June 30, 2007. We reviewed $748,000 in expenses for two affordable homebuyer
projects and one rent-assisted project. The projects had the largest voucher amounts recorded in
HUD’s Integrated Disbursement and Information System and we reviewed the projects to
determine whether the City maintained adequate support documentation for its expenses. Two of
the three projects were sold to homebuyers in 2003 and 2005, and we reviewed those projects to
determine whether the participants met income eligibility and affordability requirements. We
reviewed one additional rent-assisted project to determine whether the City complied with HUD
housing quality standards. In addition, we performed the following:

   •   Reviewed relevant HUD program regulations and procedures.
   •   Reviewed the City’s internal policies and procedures, including monitoring protocols and
       procedures on community housing and development organization recertifications,
       accounting for program income, and rehabilitation of City projects.
   •   Reviewed the City’s consolidated and action plans to determine what overall strategies
       and resources the City is using to address community needs and what specific
       activities are to be undertaken.
   •   Reviewed pertinent agreements between the City and its community housing and
       development organizations.
   •   Reviewed agreements and contracts between the City and its contractor personnel.
   •   Reviewed monitoring performed by HUD Office of Community Planning and
       Development staff, City staff, and the City’s contractor.
   •   Interviewed appropriate City Finance and Community Development Department
       personnel to obtain an understanding of operations and internal controls.
   •   Interviewed City contractor personnel from Karen Warner Associates and
       Comprehensive Housing Services to determine the nature of services they provide
       to the City.
   •   Reviewed single audit reports for the City’s fiscal years 2003 through 2006.

   We performed our review in accordance with generally accepted government auditing
   standards.




                                               9
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

              •       Policies and procedures that the audited entity has implemented to provide
                      reasonable assurance that a program meets its objectives.
              •       Policies and procedures that the audited entity has implemented to provide
                      reasonable assurance that program implementation is in accordance with
                      laws, regulations, and provisions of contracts or grant agreements.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable assurance
       that the process for planning, organizing, directing, and controlling program operations will
       meet the organization’s objectives.


 Significant Weaknesses


       Based on our review, we believe the following item is a significant weakness:

              •       Policies and procedures were not adequate to ensure that income
                      determinations were supported and performed consistent with HOME
                      program regulations and that HOME affordability objectives were achieved.




                                                10
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

              Recommendation                Unsupported 1/             Funds to be Put to
                  number                                                 Better Use 2/
                      1A                        $296,599
                      1C                                                    $204,442


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

2/   “Funds to be put to better use” are quantifiable savings that are anticipated to occur if an
     Office of Inspector General (OIG) recommendation is implemented, resulting in reduced
     expenditures at a later time for the activities in question. This includes costs not incurred,
     deobligation of funds, withdrawal of interest, reductions in outlays, avoidance of
     unnecessary expenditures, loans and guarantees not made, and other savings. In this
     instance, if HUD implements our recommendation, $204,442 in community housing and
     development organization proceeds, derived from the HOME program, will be promptly
     utilized for affordable housing to benefit low-income program participants.




                                              11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         12
Comment 1




Comment 2




            13
Comment 2




Comment 3




            14
Comment 4




Comment 5




            15
16
                         OIG Evaluation of Auditee Comments

Comment 1   Our report states that “our objectives were to determine whether conditions
            identified by HUD and the single audit report still existed and to determine
            whether the City administered its HOME program in accordance with HUD
            requirements. To clarify, the purpose of the OIG review was not only to
            determine if the lack of policies and procedures that were identified in the HUD
            monitoring and single audit report still existed, but also to test the compliance of
            projects that were funded with HUD money.

            We recognize that the City has adopted and is in the process of implementing
            improved policies and procedures to administer its HOME program in accordance
            with HUD rules. This has been extensively documented and is specifically stated
            in the Background and Objectives and Conclusion sections of the report.

            Because many of the City’s more recent projects are in progress and have no
            tenants or homebuyers, we could not test them to determine HOME compliance in
            key areas such as income eligibility, affordability, and HQS. Consequently, the
            projects that we selected for review were completed projects with transaction
            dates that fell within our audit period (from July 2003 thru June 2007).
            Construction on these projects was completed and tenants and homebuyers
            resided in the properties. Therefore, the projects could be tested to determine if
            the aforementioned areas were in compliance with HOME requirements.

Comment 2   The records that the City has stated support the homebuyers’ eligibility
            (consisting of one paystub and written verification of social security benefits from
            a loan officer) were insufficient according to HOME regulations (refer to 24 CFR
            92.508(a)(3)(v)). However, OIG recognizes that the City will attempt to provide
            the necessary documents to support the eligibility of the homebuyers by obtaining
            the information from the household members (who still own the property) and/or
            through a third-party (i.e., Social Security administration).

Comment 3   OIG acknowledged in the report that the City has established new procedures
            (including guidelines for determining income eligibility) to assist in administering
            its HOME program and also acknowledged that the City has hired contractors to
            assist in this effort. We are aware that the new procedures have been transmitted
            to and approved by HUD and recognize the City’s efforts to ensure greater control
            over future income determinations by requiring that all future homebuyer income
            determinations are performed by the City instead of CHDO personnel. We
            reviewed the new procedures which include guidelines for determining income
            eligibility for the City’s residential rehabilitation program and rental projects. We
            determined the procedures offered general guidance, but lacked technical details
            that are necessary to perform a complete and thorough eligibility determination.
            We believe that the effectiveness of the City’s procedures would be greatly
            enhanced if additional details were included. Accordingly, we revised the



                                             17
            recommendation to state that the City should include sufficient details in its
            procedures to ensure that income is properly assessed and calculated. However,
            since the City presently has contractors to perform its reviews, we removed a
            portion of our recommendation related to our request that the city ensure that its
            staff receive income eligibility training.

Comment 4   Upon further review, we determined that the City is correct that its new internal
            policies and procedures articulate affordability requirements for its affordable
            homebuyer projects. The procedures state that affordability restrictions must be
            imposed [in Covenants, Conditions and Restrictions, deeds of trust and HOME
            regulatory agreements] and also state that the City will recover whatever funds
            were provided if the homebuyer does not remain in the property [or the property
            does not remain affordable]. Accordingly, we removed the original 1C
            recommendation from the final report.

Comment 5   CPD Notice 97-9, paragraph VI, B, states that if proceeds from the use of a
            CHDO set-aside are retained by the CHDO, a written agreement between the
            participating jurisdiction and the organization must identify HOME-eligible or
            other housing activities to benefit low-income families that will be funded with
            the proceeds as well as any expenditure deadlines that must be met. OIG believes
            that affordability is a separate issue from the retention of proceeds by the CHDO
            and agrees that the City’s updated procedures do address the enforcement of
            affordability restrictions. However, the procedures do not address the future use
            of retained proceeds that were earned by a CHDO from the sale of HOME
            assisted property. Therefore, the City’s policies and procedures should include
            guidance to ensure that the disposition of proceeds that are derived from the
            aforementioned circumstances be documented in a written agreement.




                                             18
Appendix C
                                         CRITERIA


Regulations at 24 CFR 5.609(b)(1) state that annual income includes but is not limited to the full
amount, before any payroll deductions, of wages and salaries, overtime pay, commissions, fees,
tips and bonuses, and other compensation for personal services.

Regulations at 24 CFR 5.609(b)(4) state that annual income also includes the periodic amounts
received from Social Security, annuities, insurance policies, retirement funds, pensions,
disability or death benefits, and other similar types of periodic receipts, including a lump sum
amount or prospective monthly amounts for the delayed start of a periodic amount.

Regulations at 24 CFR 5.611(a) state that adjusted income means annual income of the members
of the family residing or intending to reside in the dwelling unit, after making the following
mandatory deductions:

       •   $480 for each dependent;
       •   $400 for any elderly or disabled family member;
       •   Unreimbursed medical expenses of any elderly or disabled family member;
       •   Unreimbursed reasonable attendant care and auxiliary apparatus expenses for each
           member of the family who is a person with disabilities, to the extent necessary to
           enable any member of the family (including the member who is a person with
           disabilities) to be employed; and
       •   Any reasonable child care expenses necessary to enable a member of the family to be
           employed or to further his or her education.

Regulations at 24 CFR 92.203(a)(2) state that a participating jurisdiction must determine that
each family is income eligible by reviewing the source documentation evidencing annual
income.

Regulations at 24 CFR 92.254(a)(3) state that housing must be acquired by a homebuyer whose
family qualifies as a low-income family and the housing must be the principal residence of the
family throughout the period of affordability.

Regulations at 24 CFR 92.254(a)(4) state that HOME-assisted housing that receives more than
$40,000 in assistance must meet affordability requirements for not less than 15 years after
project completion.

Regulations at 24 CFR 92.254(a)(5)(i) and (ii) state that to ensure affordability, a participating
jurisdiction must impose either resale or recapture requirements at its option. Resale
requirements must ensure, if the housing does not continue to be the principal residence of the
family during the period of affordability, that the housing is made available for purchase only to
a buyer whose family qualifies as low income and who will use the property as the family’s



                                                19
principal residence. Recapture provisions must ensure that the participating jurisdiction recoups
all or a portion of the HOME assistance to the homebuyers if the housing does not continue to be
the principal residence of the family for the duration of the period of affordability.

CPD Notice 97-9, paragraph VI.B, states that if community housing and development
organization proceeds are retained, a written agreement between the participating jurisdiction
and the organization must identify HOME-eligible or other housing activities to benefit low-
income families that will be funded with the proceeds as well as expenditure deadlines.

Regulations at 24 CFR 92.508(a)(3)(v) state that a participating jurisdiction must maintain
project records demonstrating that each family is income-eligible.




                                               20
